                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A09070061                                                                        Page 1 of 1



         OIG received an allegation that a;PI 1 and his co-PI2 had submitted a proposae containing plagiarized
         text. In response to OIG's letters of inquiry, both the PI and co-PI independently said that the co-PI
         had written the proposal. The co-PI explained that the individual listed as PI was so listed because
         university policy precluded the co-PI, because of his appointed position, from directly submitting
         proposals. Based on the statements of the two individuals we concluded that the co-PI was'the
         subject ofthis allegation. We did not consider the PI as a subject ofthis matter. The subject admitted
         that he had copied the text without attribution. His rationale for doing so did not dispel the
         allegation and OIG referred the matter to his employing institution.4

         In response to the referral, the institution conducted an investigation, and then supplemented that
         investigation with additional information at OIG's request. The institution concluded that the PI had
         poor language skills and had used others, whom he provided second authorship, to edit and correct
         his mistakes. The PI had not had any responsible conduct of research (RCR) training, nor had he
         taught any RCR classes where he would have learned the expectations for integrity in the US
         academic enterprise.

         OIG concurred with the institution's assessment and concluded that although the PI's plagiarism
         exceeded,NSF's normal threshold for a finding ofresearch misconduct,.the PI neither exhibited the
         requisite level of intent for such a finding, nor the knowledge necessary to conclude that he would
         have known that his actions significantly deviated from accepted practices. Since the conclusion of
         the institution's investigation the PI has participated in training sessions and workshops to improve
         his writing skills and has completed the institution's course in RCR. OIG sent the PI a strongly
         worded letter of warning and closed this case with no further action.




NSF OIG Fonn 2 (1lI02)
